No.

 

 

IN THE

Supreme Court of the United States

PUBLISHERS BUSINESS SERVICES, INC., ED
DANTUMA ENTERPRISES, INC., EDWARD
DANTUMA, DRIES DANTUMA, DIRK DANTUMA,
JEFF DANTUMA, and BRENDA SCHANG,

Petitioners,
v.

FEDERAL TRADE COMMISSION,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Ninth Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,435 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 18\, 2019.

 

Wilson-Epes Printing Co., Inc.
